U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

February 22, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: National Coalition for Men, et al. v. Selective Service System, et al.,
No. 20-928
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 8,
2021. The government’s response is now due, after one extension, on March 15, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including April 14, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of
previously assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-0928
NATIONAL COALITION FOR MEN, ET AL.
SELECTIVE SERVICE SYSTEM, ET AL.

MONICA HAYMOND
ORRICK, HERRINGTON & SUTCLIFFE, LLP
1152 15TH STREET, NW
WASHINGTON, DC 20005
202-339-8453
MHAYMOND@ORRICK.COM
RIA TABACCO MAR
ACLU
125 BROAD STREET, 18TH FLOOR
NEW YORK, NY 10004-2400
212-549-2627
RMAR@ACLU.ORG
JAIME A. SANTOS
GOODWIN PROCTER LLP
1900 N STREET, NW
WASHINGTON, DC 20036
202-346-4000
JSANTOS@GOODWINLAW.COM

